CERTIFICATE OF COMPLIANCE
Case No. 19-357
Caption: City of Chicago, Illinois u. Robbin L.
Fulton, et al.
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 7,748 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 7, 2020.

UIMU/~

Anne Lamb
Record Press, Inc.

Sworn to before me on
February 7, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01OS6101366

